 

Iu The
Supreme Court of the United States

ILMA ALEXANDRA SORIANO NUNEZ,

Petitioner,
Vv.
UNITED STATES OF AMERICA
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit.

MOTION FOR LEAVE TO FILE IN FORMA PAUPERIS AND PETITION FOR
WRIT OF CERTIORI

JOSE C. CAMPOS, ESQ.
COUNSEL OF RECORD
THE LAW OFFICE OF
251 E. BROAD St.
BETHLEHEM, PA 18018
(610) 868-2230
je@jccamposlaw.com

 
PETITIONER’S MOTION FOR
LEAVE TO FILE IN FORMA PAUPERIS

Petitioner Ima Alexandra Soriano Nunez, through undersigned counsel asks
leave to file the attached petition for a writ of certiorari without prepayment of costs
and to proceed in forma pauperis.

Petitioner filed a motion to appoint counsel in the United States District
Court for the Eastern District of Pennsylvania. That court held that the Petitioner
is financially unable to obtain representation by counsel and appointed counsel
under 18 U.S.C. § 3006A. A copy of this order, dated August 8, 2019, is included in
the appendix to the petition at App.38a. Per Sup. Ct. R. 39.1, when a lower court

has appointed counsel to an indigent party, no affidavit or declaration is required.

Respectfully submitted,

 

THE LAW OFFICE OF
JOSE C. CAMPOS, ESQ.
251 E. BroaD ST.
BETHLEHEM, PA 18018
(610) 868-2230
je@jccamposlaw.com

March 80, 2021
